Service List, 20-1019
Attorneys for Petitioner
Andrew Michael Grossman
Counsel of Record
Baker & Hostetler LLP
1050 Connecticut Avenue, N.W., Suite 1100
Washington, DC 20036
agrossman@bakerlaw.com
202-861-1697
Party name: Jade Thompson
Attorneys for Respondents
Scott A. Kronland
Counsel of Record
Altshuler Berzon, LLP
177 Post Street, Suite 300
San Francisco, CA 94108
skronland@altshulerberzon.com
415-421-7151
Party name: Marietta Education Association
Nicole Marie Donovsky
Counsel of Record
Bricker & Eckler LLP
100 S. Third Street
Columbus, OH 43215
ndonovsky@bricker.com
614-227-4866
Party name: Marietta City School District Board of Education
Amici (will be served electronically only)
Jacob H. Huebert
Counsel of Record
Goldwater Institute
500 E. Coronado Rd.
Phoenix, AZ 85004
jhuebert@goldwaterinstitute.org
602-462-5000
Party name: Goldwater Institute

Daniel Robert Suhr
Counsel of Record
Liberty Justice Center
208 South LaSalle Street, Suite 1690
Chicago, IL 60604
dsuhr@libertyjusticecenter.org
414-588-1658
Party name: Liberty Justice Center

